Department of Health and Human Services

        OFFICE OF

   INSPECTOR GENERAL




        PHYSICAL THERAPY

      IN PHYSICIANS’ OFFICES





                   ~ sWlc~$
            ,*F,
                              %,
           +’



                   Jf
          2--                      JUNE GIBBS BROWN
         :
         :‘s                        Inspector General
          ‘b
           ~ti,                        MARCH 1994
             4
               3
              4&~dJ{]
                                      OEI-02-!WO0590
                      OFFICE OF INSPEHOR                 GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Semites’ (HHS)
programs as well as the health and welfare of beneficiaries setved by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management prob]ems and recommends courses to
correct them.

                         OFFICE       OF AUDIT SERVICES

The OIG’S Office of Audit Sewices (OAS) provides all auditing semices for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE       OF INVESTIGATIONS

The OIGS Office of Investigations (01) conducts criminal, civil, and administrative

investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of

unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,

administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud

control units which investigate and prosecute fraud and patient abuse in the Medicaid program.


              OFFICE OF EVALUATION                   AND INSPECTIONS

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid. accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

This report was prepared in the New York Regional Office under the direction of Regional
Inspector General Thomas F. Tully and Deputy Regional Inspector General Alan S. Meyer.
Project Staff included:

Ncw York                                                    Headquarters

Rcncc C. Dunn, P.T. (Project Leader)                        Wayne A. Powell
Lucille M. Cop, R.N.                                        Barbara R. Tcdcsco
William J. Counihan                                         Linda M. MOSC(IC
Nancy T. Hurrison

To obtain a copy of this report contact the Ncw York Regional Office at (212) 264- 1’})S
Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




       PHYSICAL THERAPY
     IN PHYSICIANS’ OFFICES
              EXECUTIVE                            SUMMARY


PURPOSE

To determine the nature and extent of physical therapy services provided to Medicare
beneficiaries in physicians’ offices and to describe carrier monitoring of these sewices.

BACKGROUND

Physical therapy treatment consists of a planned program to relieve symptoms,
improve function and prevent further disability for individuals disabled by chronic or
acute disease or injury. Treatment may include various forms of heat or cold,
electrical stimulation, therapeutic exercises, ambulation training and training in
functional activities.

Medicare has detailed coverage guidelines for physical therapy which apply to all
outpatient settings, except physicians’ offices. While no specific coverage requirements
exist regarding physical therapy in physicians’ offices, the services like all others, must
be reasonable and necessary and not for palliation.     As in any other area in Medicare,
in the absence of HCFA national policy, local carriers establish their own policies.

For outpatient settings other than physicians’ offices, Medicare requires the services
must be restorative or for the purpose of designing and teaching a maintenance
program for the patient to carry out at home. The services must also relate to an
written treatment plan and be of a level of complexity that requires the judgement,
knowledge and skills of a qualified physical therapist to, perform and/or supervise the
services. The amount, frequency and duration of the physical therapy services must be
reasonable.   Lastly, the sewices must be considered reasonable and necessary and
must not be palliative in nature.

Medicare reimbursement    for physical medicine services provided by physicians and
independently practicing physical therapists increased by 40 percent from 1990 to
1991. Allowed charges for these services in the HCFA common procedure code index
(HCPCS) went from a combined total of $144 million in 1990 to $202 million in 1991.

We selected a stratified random sample of 300 beneficiary cases who received physical
therapy services ( 100 from independently    practicing physical therapists’ offices and 200
from physicians’ offices) in 1991 to compare sewices in physicians’ offices with those in
another outpatient setting. We obtained the medical records of 166 of the physicians’
claims and 89 of the independently   practicing physical therapists’.    We conducted a
medical review of the records, determined the percentage of cases which would not
have met Medicare coverage guidelines had they been performed outside a physician’s
office and those which were palliative and calculated the possible cost savings to
Medicare.



                                               1
The study team also interviewed, by telephone, 36 physicians, 20 physical therapists, 42

carriers and representatives of six professional associations to gather their perspectives

and concerns pertaining to physical therapy setices provided in physicians’ offices.

We also obtained and reviewed carrier documents regarding provider education,

policies and screens for physical therapy services.


FINDINGS


Alnwst Four Out of Five Cases Rei.mlxud as Physical l%erapy in Physicians’ Ofices Do
Not Represent Tw Physical l’%eraW Services: $47 Million Was Inapproptitely Paid in
1991

The services are not restorative or complex nor do they have treatment plans with
goals or objective evaluations.   Most of the questionable services are palliative, giving
only temporary relief and, therefore, are not covered under section 1862 (a)(l)(A) of
the Social Security Act. The great majority of independently      practicing physical
therapy services meet all Medicare coverage guidelines; they routinely have plans of
care, goals, objective evaluations and are restorative in nature.

Cam-en Have Paid Little Attention to Physical Therapy in Phy.n”cians’0j5ces

Two-thirds   of the carriers   have no policies concerning       physical therapy    in physicians’
offices.

All Profw”onal Associatwm, Some Cam”ers,Physician and Phyn”cal l%erapy Respondents
Encourage More Stringent Requirement for Physical Therapy in Physicians’ Ofices

Both professional physician specialty organizations and physical therapy associations

agree that physical therapy in physicians’ offices should be restorative and have goals

set forth in a plan of care. Over a third of the carrier respondents feel there are

problems with the frequency of physical therapy treatments in physicians’ offices, such

as overutilization and excessive sexvices.


RECOMMENDATIONS


We recommend that FICFA take appropriate        steps to prevent inappropriate payments

for physical therapy in physicians’ offices. The HCFA can use the following

approaches to achieve this goal:


   �    Conduct   focused medical      review.

   �    Provide   physician    education   activities,

   �	   Apply its existing physical therapy        coverage   guidelines   for other settings to
        physicians’ offices.




                                                     ii
We estimate that implementation    of this recommendation   would save $235 million
over five years.

COMMENTS

Comments on the draft report received from HCFA and the Assistant Secretary for
Planning and Evaluation (ASPE) concur with the general thrust and significant details
of our recommendations.   Suggestions for changes in wording, clarifications of the text
and technical changes have, for the most part been incorporated  into the final report.
The actual comments received are in Appendix B.

The HCFA plans to share copies of the IG report with carriers and ask them to focus
on issues identified in the report. Also, it has a work group considering alternative
ways of providing appropriate    physician education.  The HCFA would like to analyze
the results of these actions before changing coverage guideline policies. We support
this approach and will, of course, be interested in the results of the analysis.

Finally, while we appreciate ASPE’S desire to see a more explicit recommendation,     it
is our desire to allow the operating agency flexibility in addressing the concerns
identified and developing corrective actions.




                                             ...
                                             111
                      TABLE                     OF CONTENTS


                                                                                                                    PAGE


EXECUTTVE         SUMMARY


INTRODUCJ30N              . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1



FINDINGS        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...7


 �$47    Million inappropriately            Paid      . . .. .. . . . . . . . . . . . . . . . .. . . . . . . . . .. .         7


 � Carriers     Pay Little Attention            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


 . More Stringent         Requirements          Encouraged          . . . . . . . . . . . . . . . . . . . . . . . . . . . 11




RECOMMENDATIONS                     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


APPENDIX


lk   Sampling    Methodology          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..A-l

B: Comments         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..B-l
                          INTRODUCTION


PURPOSE

To determine the nature and extent of physical therapy services provided to Medicare
beneficiaries in physicians’ offices and to describe carrier monitoring of these semices.

BACKGROUND

Physical therapy treatment consists of a planned program to relieve symptoms,
improve function and prevent further disability for individuals disabled by chronic or
acute disease or injury. Any condition which requires physical rehabilitation,     such as
low back pain, bursitis, stroke, Parkinson’s disease, or arthritis, can benefit from
physical therapy.

A licensed physical therapist evaluates the patient, develops a treatment program and
sets goals to meet each patient’s needs. This plan may include various types of
therapeutic exercise, either manual or with the assistance of a machine, to decrease
pain and improve strength, endurance, coordination, range of motion and mobility.
Treatment may also include such modalities as hot or cold packs, whirlpool, diathermy,
ultrasound, traction and electrical stimulation. These modalities are most often used
in combination with exercise. Additional physical therapy treatments include
ambulation training, assessment for orthotic or prosthetic devices, and functional
training activities needed for daily living.

An aging population and medical advances in the treatment of chronic disease have
contributed to the need for physical therapy in recent years. The number of licensed
physical therapists and the variety of settings in which they work have also increased.
These settings may include acute care hospitals, outpatient clinics, home health
agencies, independently   practicing physical therapists’ offices or physicians’ office.

All States have licensing laws and specific regulations pertaining to physical therapy
practice. Physical therapists must pass certain educational and examination
requirements   to qualify for a license. Most States require that only a person licensed
or authorized under their legislation shall practice physical therapy or use the title
“physical therapist.”

Medicare Coverage

Medicare covers physical therapy in both inpatient and outpatient settings. Inpatient
settings include institutions such as hospitals and nursing homes. Outpatient settings
are independently     practicing physical therapists offices’, outpatient clinics, home health
agencies, rehabilitation    agencies, and physicians’ offices.




                                               1

To bereimbursed        by Medicare, allprovider settings, with theexception  of physicians'
offices, must be certified. AS part of the certification process, the State surveys each
facility to assure that Medicare standards are met. During these surveys, the State
representative    reviews personnel records of staff giving care to be sure they are
qualified.

Covera~e   in Physicians’ offices

Medicare has detailed coverage guidelines for physical therapy which apply to all
outpatient settings, except physicians’ offices. Medicare covers physical therapy in
physicians’ offices as it does any other medical treatment, as incident to a physician’s

service. This means, according to the Medicare Carriers Manual (MCM) section 2050,

the semices must be: an integral part of a physician’s service; commonly furnished in

a physician’s office; rendered without charge or included in the physician’s bill;

performed under the direct (rather than general) personal supervision of the

physician; and performed by an employee of the physician. As any other physicians’

services, according to the Social Security Act, in the section on exclusions from

coverage, Section 1862 (a)(l)(A) states that,’’... no payment may be made under part

A or part B for any expenses incurred for items or services which,... are not

reasonable and necessary for the diagnosis and treatment of illness or injury or to

improve the functioning of a malformed body member.” This section goes on to say

that payment is prohibited for medical semices that are for prevention, palliation,

research, or experimentation.     Palliation is generally defined as relieving or easing pain

temporarily.    No specific MCM coverage requirements        exist regarding physical therapy

in a physician’s office. As in any other area in Medicare, in the absence of HCFA

national policy, local carriers establish their own policies.


Coverage   in outpatient   settinus other than physicians’ offices


The MCM, section 2210, contains coverage requirements          for independently  practicing

physical therapists.   The Medicare Intermediary Manual (HIM) contains similar

coverage requirements     for other Part B outpatient providers of physical therapy,

including approved clinics, rehabilitation  agencies, participating hospitals, skilled

nursing facilities, and home health agencies. The key elements in both manual

sections include:


   .�   The semices must be restorative with an expectation that the patient’s condition
        will improve significantly in a reasonable and generally predictable period of
        time based on the assessment by the physician and qualified physical therapist:
        or the services of a qualified therapist may be necessary to design and teach a
        maintenance    program for the patient to carry out at home.

   .�   The physical therapy services must relate to an written treatment plan
        established by the physician after consultation with the qualified physical
        therapist.  “The plan must relate the type, amount. frequency, and duration        of
        the physical therapy services ... and indicate the ciitignosis and anticipated
        goals.” The MCM states that the plan may be established          by either the
        physician or the qualified physical therapist.

        The physical therapy service must be of a level of complexity and sophistication,
        or the condition of the patient must be such that requires the judgement,
        knowledge and skills of a qualified physical therapist to perform and/or
        supervise the services.

        The amount,     frequency   and duration   of the physical therapy   semices must be
        reasonable.

To fulfill    these requirements  and demonstrate  the patient’s restoration potential, the
patient’s    record must show objective measures of patient evaluations such as strength,
balance,     endurance, range of motion and activities of daily living. There must also be
periodic     review by the physician.

The Medicare manual physical therapy guidelines for outpatient settings, other than
physicians’ offices, discuss some of the more common physical therapy modalities and
procedures utilized in the treatment of patients. They give examples of what would
constitute Medicare covered physical therapy. For instance, simple heat treatments
such as hot packs, cold packs, infra-red, and whirlpool, which do not ordinarily require
the skills of a qualified physical therapist and when used alone are usually palliative
(giving temporary relief), are not covered. However, such treatments may be given as
a part of a more complex program and would be considered part of that physical
therapy service. Also, in some cases where the patient has circulatory deficiency, areas
of desensitization,   open wounds or other complications, the skills and judgement of a
qualified therapist may be necessary and, therefore, covered. Other more complex
modalities such as ultrasound, shortwave, and microwave diathermy treatments must
always be performed by or under the supervision of a qualified physical therapist, and
would then constitute physical therapy.

To be covered by Medicare, range of motion tests must be performed by qualified
therapists.  Range of motion exercises require the skills of a qualified therapist only
when they are a part of active treatment for a specific disease; the degree of motion
lost and the degree restored must be documented.       Generally, range of motion
exercises which are not related to a specific loss of function, but intended for the
maintenance of function, do not require the skills of a qualified therapist.   However,
the therapist could design a program of maintenance exercises for the patient and
Pamily to carry out, and Medicare would cover it.

Therapeutic   exercises which must be performed by or under the supervision of the
qualified therapist, due to the type of exercise or the condition of the patient, are also
covered. Gait evaluation and training with a patient who has impaired function would
require the skills of a qualified physical therapist, but would be considered physical
therapy only if the patient can be reasonably expected to improve his or her ability to
walk. Repetitive exercises to improve gait or m:lint:lin strength and endurance, or to


                                                   3

assist a feeble patient in walking, do not require the skills of a qualified physical
therapist.  An example would be a patient who has generalized weakness and needs
assistance and encouragement     to walk and to increase his/her endurance.    This semice
could be carried out by a non-physical therapist such as a nurse or nurse’s aide, but
would not be considered covered physical therapy.

Medicare Reimbursement

Medicare reimbursement     varies for different physical therapy providers.    Medicare
pays both inpatient and outpatient institutional providers on a reasonable cost basis.
Physicians and independently    practicing physical therapists in their offices are paid on
the basis of a Medicare fee schedule. The independently        practicing physical therapists
are, however, subject to a yearly $750 reimbursement      limitation per patient.

Medicare reimbursement    for physical medicine services provided by physicians and
independently practicing physical therapists increased by 40 percent from 1990 to
1991. Allowed charges for these services in the HCFA common procedure code index
(HCPCS) went from a combined total of $144 million in 1990 to $202 million in 1991.

Medicare reimbursement    for the three most commonly reimbursed physical therapy
HCPCS codes for physicians and independently     practicing physical therapists shows a
273 percent increase over the five-year period from $24.8 million in 1986 to $92.1
million in 1991. In one year, from 1990 to 1991, allowed charges for just these three
codes increased 26 percent from $73.3 million to $92.1 million. The three codes are
97010, physical treatment of one area of the body with hot or cold packs; 97110, initial
physical therapy treatment of therapeutic exercise in one area of the body for 30
minutes and; 97128 ultrasound treatments.

Prior Study

A 1982 HCFA Region II validation study raised certain issues. The fact that these
issues remain is one factor that prompted the present inspection.            The prior study
noted that there were no HCFA directives addressing physical therapy services
furnished by physicians in their offices and thus no requirement          that the care be
restorative.   However, there were HCFA instructions governing the same therapy for
other outpatient providers, including independently          practicing physical therapists. The
study also reported the absence of HCFA guidelines addressing the reimbursement                of
non-restorative,    palliative treatment billed as physical therapy in either setting. The
medical record review identified 57 percent of the total study semices in physicians’s
offices as palliative care. The study recommended           that HCFA establish uniform
guidelines for the coverage and reimbursement           of restorative physical therapy services.
It also recommended         that non-restorative services be reimbursed as a part of medical
semices, but not separately as physical therapy. No action was taken.
METHODOLOGY

First, we selected a stratified random sample of 300 beneficiary cases. Each case
represents all physical therapy semices received by a sample beneficiary from a single
provider in 1991. The sample consists of the HCFA common procedure coding
system (HCPCS) codes 97010 to 97799. One stratum included beneficiaries who
received physical therapy services in independently      practicing physical therapists’
offices and the other stratum included beneficiaries who received services in
physicians’ offices. The independently      practicing physical therapists’ offices were
selected as a representative    of other outpatient settings with which to compare
services in physicians’ offices. One hundred of the beneficiaries treated by
independently    practicing physical therapists were chosen from the first stratum and
200 by physicians from the second stratum (see appendix A.) This sample of 300
beneficiary cases was handled by 42 Medicare carriers, whom we contacted to obtain
the names of the providers in each of these claims.

Next, we asked the providers to send us copies of all of the sample patients’ physical
therapy medical records for the period of 1990 to the present.        We received 255 (85
percent) of the 300 records requested; 166 records from physicians and 89 from
independently    practicing physical therapists.    The study team created a review form
for the medical records based on Medicare coverage guidelines for physical therapy
provided in all outpatient settings other than physicians’ offices (where there are no
guidelines).   A HCFA physical therapist reviewed the form and found it an acceptable
way to determine whether the treatment would constitute covered physical therapy. A
physical therapist and registered nurse from the study team reviewed the medical
records to ascertain whether there was a written treatment plan with diagnosis and
anticipated goals; whether the care was restorative with the expectation that the
patient would improve significantly in a predictable period of time; whether a
maintenance program was designed and taught; whether objective testing was done;
whether the services were palliative; and whether the amount, frequency and duration
of the services was reasonable.      We next compared the medical records of physicians
with those of independently     practicing physical therapists to identify differences or
similarities regarding semices provided, the type of person providing them, and levels
of documentation.       Based on the results of this medical review, we determined the
percentage of semices which would have met Medicare coverage guidelines had they
been performed outside a physician’s office and calculated the possible cost savings to
Medicare if these coverage requirements         for physical therapy were applicable to that
 in physicians’ offices.

We also selected a stratified random subsample of 60 of the 300 providers, 40
physicians and 20 independently      practicing physical therapists to interview by
telephone.    We were able to contact 36 of these physicians and all 20 of the
independently    practicing physical therapists.  We asked both groups how ph~sical
therapy in physicians’ offices compares to that in independently      practicing physical
therapists’ offices, and about the qualifications of the person in their office providing
the service and compared their responses.


                                              5

We reviewed carrier documents related to physical therapy, which 40 of the 42 carriers
submitted, regarding their provider education, po]icies and screens. We identified
billing restrictions and screens or other controls, both pre-and post-payment.      Also, we
interviewed, by telephone, staff experienced in physical therapy coverage and
reimbursement       from the 42 carriers in our sample to gather their perspectives and
concerns pertaining to physical therapy services provided in physicians’ offices.

Lastly, we interviewed representatives    of two physical therapy associations and four
other medical specialty organizations    to gain their views on physical therapy in
physicians’ offices.




                                              6

                                      FINDINGS


ALMOST FOUR OUT OF FIVE CASES (78 PERCENT)  REIMBURSED    AS

PHYSICAL THERAPY IN PHYSICIANS’ OFFICES DO NOT REPRESENT      TRUE

PHYSICAL THERAPY SERVICES:  $47 MILLION WAS INAPPROPRIATELY

PAID IN 1991


Most of the questionable services are palliative, therejore not covered under section 1862
(a)(l)(A) of the Social Security Act. They are not restorative or complq nor h they
have treatment plain with goai%or objective evaluations.

The physical therapy sexvices in physicians’ offices are generally some form of
palliative treatment giving only temporary relief, such as hot packs, whirlpool,
ultrasound, diathermy and/or massage, often given by unlicensed people without any
exercises or functional activities. Almost three-quarters  of the physician medical
records do not show the physical therapy services to be of a level of complexity to
require the judgement, knowledge and skills of a qualified physical therapist.   Only 13
percent of the cases involve exercises. When physicians were asked about the kinds of
semices they provide, over one-third of the physician respondents report that they only
provide some type of heat. This group includes 13 of the 15 podiatrists interviewed.
only 38 percent of physicians interviewed report that they ever provide exercises.

The 1991 HCFA data show that the                most frequently reimbursed physical therapy
procedures in physicians’ offices are           hot or cold packs and ultrasound.  Table A below
shows the fiscal year 1991 frequency            and allowed amounts for the top eight physical
medicine codes in physicians’ offices           only. These are ranked in terms of dollars
allowed.

                                                  TABLE       A


: HCPCS      ~DESCRIPTION                                         I FREQUENCY            ~ ALLOWED        \
~ CODES      ~                                                                           ! AMOUNT         ~

~   97128    ~Ultrasound                                          ! 1,145,900            ~$~o, 182,800    ~

j 97010      ~ Hot or cold packs                                  ‘ 1,111,100            ‘ $19,214,900    ‘
[ 97110      ! Therapeutic      exercises                         :   811,000            , $16,174,100    ~
! 97014      : Electrical    stimulation       (unattended)           464,300              $s,401,400
~97022       ~ Whirlpool                                              558,700              $8,279,400
~
i 97530      I Kinetic activities                                     ~3~,300              $6,805,400
                                           .                                                             ..
! 97124      ~ Massage                                                375.500              $6,384,300     ~
,
: 9711s       Electrical     stimulation       (manual)               ~~& joo”             $5,719,300”
                                                                                 --==-   ---= .—. ——.
                                                                                                    -——.-
                                                                                                       —.=.—
                                                                                                          =..


                                                          7
Most physical therapy care in physicians’ offices is not restorative nor does it establish
a maintenance    program.   Almost four out of five cases (130 out of 166) would not
meet the primary Medicare guideline for physical therapy in other settings that
sefices be restorative or for the establishment    of a maintenance  program.  Of the 36
cases in physicians’ offices meeting the guidelines 26 have restorative care and in ten a
maintenance    program was established.

The medical record review reveals that the physical therapy patients get in physicians’
offices is usually provided too sporadically and infrequently to achieve any goals in a
predictable time and is therefore not restorative.   The following are examples of non-
restorative care found in the medical records:

       C)ne patient treated by a specialist in internal medicine who employs a physical

       therapist has osteoarthritis and pain in the knee, neck and back. She visits her

       physician once every month or two. She receives physical therapy once or twice

       a week, off and on, with a treatment of hot packs and massage and sometimes

       ultrasound.   The physical therapist’s notes generally say patient tolerated

       treatment well and that sometimes she feels better after treatment, and

       sometimes not. This care appears to be palliative with temporary relief at best;

       no real functional outcome can reasonably be expected.


       In another example, a specialist in internal medicine occasionally    administers

       ultrasound to his patient with chronic arthritis of the right shoulder during a

       routine visit. The record shows no objective evaluations or plan of care or any

       expected functional outcome from the ultrasound treatment.


over two-thirds (114) of the physician’s medical records had no written treatment plan

for physical therapy and over three-quarters  (128) of the records have no physical

therapy goals spelled out. Further, over two-thirds (113) of the physicians’ medical

records have no objective evaluations with which to measure the patient’s progress.

Of those that do have a treatment plan with goals, the goals include increasing

function, strength and range of motion, decreasing pain, and improving ambulation.

of those with objective evaluations, the majority evaluated range of motion and/or

pain.


Among difierent physician groups, podiixoists are least likely to provide care tha[ ir tndy
physkal them~.

only two of the 47 cases from podiatrists show restorative care. Almost two-thirds of
the non-restorative podiatry care was palliative. The remaining one-third was related
to surgery such as whirlpool to soften the skin and nails prior to debridement   or a post
operative cold pack to prevent swelling. In most cases these treatments were provided
once every month or six weeks when the patient routinely visited the podiatrist.
Seventy-eight percent of podiatrists had no treatment plan; 82 percent had no goals.
and S0 percent had no objective evaluations (see tuble B below.)
                                           TABLE     B


          FEW SPECIALTIES        WOULD MEET THE PHYSICAL THERAPY
            REQUIREMENTS         FOR OTHER OUTPATIENT  SE’ITINGS


                  Orthopedic     Physical      General
                   Surgery       Medicine      Medical          Podiatry   Others*   Totals
                                 & Rehab      Practice +
                     N=28          N=8           N=66            N=47       N=17     N=166




F

 Has
 Treatment                        (10:%)            (1?%)        (2:L)      (3:%)    (3:;)
 Plan

 Has goals                                                                             38
                                   (2:%)            (6i)    ] (1;%)         (3:%)
 Has objective
 evaluations         (7?%)         (8/%)      m                             (3:%)

  Care Either                                               I
  Restorative
  or                 (6~%)         (7:%)            (9i)          (4i)      (1:%)



L

~ Establishing
I Maintenance
~ Program

The numbers within each specialty are not mutually exclusive.
+     General Medical Practice includes 29 family practitioners,     28 general
      practitioners, and 9 internists.
*     Others include 4 general surgeons, 2 cardiovascular specialists, 2 clinics, 2
      unknowns, 2 osteopaths, an anesthesiologist,  a dermatologist,    a plastic surgeon,
      a radiologist, and a pediatrician.

Physical therapy services in the offices of orthopedic surgeons and physical medicine
and rehabilitation   specialists are more likely to be restorative or for the establishment
of a maintenance     program than to be palliative. The medical records of more than
two-thirds (19 of 28) of the orthopedic surgeons’ and three-quarters      (6 of 8) of the
physical medicine and rehabilitation    specialists’ show restorative care or the
establishment    of a maintenance program (see table B above.) This compares to only
four percent of the podiatrists, nine percent of those in general medical practice
(including internists) and 18 percent of the other specialties.

The physical therapy services are also more likely to be performed by a licensed
physical therapist or occupatiomd therapist in the offices of orthopedic surgeons and



                                               9

physical medicine and rehabilitation    specialists than in other physicians’ offices. All of
the 2S orthopedic surgeons had licensed professionals providing the physical therapy
services, 25 had physical therapists and three occupational therapists.      Of the eight
physiatrists, three had physical therapists, two physical therapy assistants and the
remaining performed the physical therapy service themselves.        None of the podiatrists,
only eight percent (5 of 66) of those in general medical practice and 18 percent (3 of
17) of the other specialties had licensed physical therapists or occupational therapists
performing the sefices.

Ntie out of ten casa in independently practicing physical therapk’ ofices meet all
Medicare coverage guidelines; thq routinely have plhs of car% goak and are restorative
in nature.

The great majority (88 percent) of the independently    practicing physical therapists’

medical records document medically necessary restorative care or the establishment       of

a maintenance    program.  The services are always provided by a licensed physical

therapist or, in one case, a licensed physical therapy assistant. The remaining care

appears to be palliative.


Almost all independently     practicing physical therapists’ medical records have a written

treatment plan (92 percent) with goals established (81 percent).       Over three-quarters

(79 percent) of the patients with goals met these goals in a predictable period of time.

Almost all independently     practicing physical therapists’ records had objective

evaluations to measure the patient’s progress. These evaluations include range of

motion, muscle strength, pain, gait, posture, sensation, functional activities, and

activities of daily living.

Most of their physical therapy treatments are complex. In over three-quarters         of the

independently    practicing physical therapists’ records, the patient was either evaluated

or performed exercises or functional activities, all of which are complex activities. All

independently    practicing physical therapist respondents reported that they provide a

whole range of services, usually including exercises or functional training in conjunction

with modalities such as heat or electrical stimulation.


CARRIERS   HAVE PAID LITTLE             ATTENTION       TO PHYSICAL       THERAPY      IN

PHYSICIANS’ OFFICES


Four-jiftti of the carriers have no polici~ concerning the r~torative nature of physica[
therapy in physicians’ ojj’ices.

Although each carrier is expected to establish local policy where no national HCFA
policy exists, twenty-four of the 42 carriers have no policy for physical therapy in
physicians’ offices. (krier   documentation   and intemiew responses by carriers and
physicians reveal that most carriers require little information other than what is on the
initial claim form. One, however, requires that a plan of treatment for services by
physicians be attached to claims for physical therapy. Another requires a physician
note on the claim thilt there is a treatment plan available for physical therapy services.


                                              1()
In contrast, all carriers require some sort of documentation    by independently
practicing physical therapists that a treatment plan is available. Some require the
treatment plan itself and others require a notation on the claim saying that the
treatment plan is available.

Tencarriers    have policies such asnotreimbursing   physical therapy on the same day as
an office visit without a separate diagnosis or only reimbursing specific HCPCS codes.
These policies do not relate to the restorative nature of physical therapy services.

Eight carrim ti their instructions indicate physical thera~ must be restorative; howeve~
no enfoxement k apparent.

Eight carriers have policies relating to the restorative nature of physical therapy
services. Six of them have sent newsletters or bulletins to physicians mentioning the
need for physical therapy services to be restorative.    One restricts this policy to
physiatrists.  one of these eight carriers has a screen dealing with the restorative
nature of the physical therapy services. A review of the medical records from claims
reimbursed by these carriers, however, shows that they are not enforcing these
restrictive policies. They approved the same percentage of non-restorative        care as
other carriers in our sample.

PROFESSIONAL   ASSOCIATIONS,   AS WELL AS SOME CARRIERS,
PHYSICIANS AND PHYSICAL THERAPISTS,     ENCOURAGE   MORE
STRINGENT   REQUIREMENTS     FOR PHYSICAL THERAPY  IN PHYSICIANS’
OFFICES

Professional associations contactai agree that physical therapy in physicians’ ofices
should be restorative.

Physician specialty organizations such as the American Academy of Physical Medicine

and Rehabilitation,   the American Osteopathic Association, the American Academy of

Orthopedic Surgeons and the American Podiatric Medical Association and

professional physical therapy associations, the American Physical Therapy Association

and an organization of Independent     Private Practitioners all agree that physical

therapy in physicians’ offices should be restorative and should have goals set forth in a

plan of care. The representative    from the osteopathic society says, “It should not go

on indefinitely. It should not be done indiscriminately.”    The response from the

Academy of Physical Medicine and Rehabilitation        was that, “PT should also maintain

function and prevent complications, PT may be instructional for the development        of

home maintenance therapy programs.        Modifications to maintenance programs are

frequently necessary, ... guidelines are needed to prevent abuse.” The American

Academy of Orthopedic Surgeons expresses similar feelings, “Physical therapy in a

physician’s office should follow the same guidelines and requirements      as therapy

performed in a free standing physical therapy office.”

Some carrkrs, physicians and physical therapists have concerns about physical therapy
sewices provided in physicians’ ofices.

Over a third of the carrier respondents feel there are probiems with the frequency of

physical therapy treatments in physicians’ offices, such as overutilization    and excessive

semices. One carrier, concerned about possible overutilization     of physical therapy

modalities by physicians, requested an opinion from its State Society of Physical

Medicine and Rehabilitation.     Some of the features included in its guidelines,

developed as a result of the Society’s opinion, follow the Medicare guidelines for

independently   practicing physical therapists.  The State society opinion also states

“There is limited justification for treating multiple areas with modalities...   The use of

modalities on a sporadic basis concurrent with routine office visits is not justified”.


Other carriers agree physicians are billing for too many physical therapy services. One

respondent suggests, “HCFA should have better guidelines.     We should rebundle

therapy, heat treatment is a part of several modalities. A lot of services are being

given, I feel, that are unnecessa~.” One carrier noted that they had 25 doctors on

their Provider Audit List (PAL) who billed for too many physical therapy semices, too

many times with no documented medical necessity.


Physical therapy in podiatrists’ offices is of particular concern to several carriers. One

carrier reported that prior to 1992 it denied physical therapy for podiatrists since the

semices were considered to be part of a visit code. However, evaluation and

management     codes do not contain physical therapy, so the carrier now pays for both.

Some carriers express the need to monitor podiatry semices more closely. A number

agree that whirlpool which is used to soften nails or tissues prior to debridement     is not

really physical therapy. One podiatrist supports this by saying, “We have found it

(physical therapy) beneficial for patients. We use it frequently following a procedure.

but not usually on its own when the patient is not in the office for another reason.” In

contrast, another podiatrist states, “It should be done every other day or every third

day for several weeks and evaluated, not just every few months when the patient

comes in. Then it’s a foot washing.”


Physical therapists also voice concerns about the frequency and care in physicians’

offices. One therapist says, “We have had complaints by patients who have got

physical therapy in a physician’s office. They said they got too many treatments that

were not necessary.”


The use of licensed prof~sionah to provide physical thera~ servictx is encouraged by
some.

The American Academy of Orthopedic Surgeons in an advisory statement dated
December 19S9 said, “Quality of care considerations dictate that the patient receives
physical therapy semices which meet the highest professional standards.      Only properly
trained and certified physical therapists should be involved in the patient’s treatment,”
The American Physical Therapy Association in its Qualifications for Persons Providing
Physical Therapy Services says, “Protection of the public interest requires that physical
therapy be provided only by persons who have successfully completed specialized
education in that field and whose practice complies with well-defined regulations.”
The association also suggests in its response that providers of physical therapy services
in a physician’s office should be required to put their State professional license
number on the billing forms.

Some carriers have concerns about who is giving the care. One carrier respondent
voices the concern of others when she says, “Lesser qualified people are used by
physicians to give physical therapy, they are not using physical therapists.”  Another
adds, “We have no way of knowing who is giving physical therapy in a physician’s
office... the physician should explain who did it and why on the claim itself.” Another
respondent says, “I would like HCFA to state that a physician cannot hire a person to
do physical therapy unless that person is licensed.”

Some physicians also had concerns about who provides the care. An orthopedist
voices the concerns of others when he says, “If doctors are billing for physical therapy
by other than a therapist, it should be stopped.    Having a nurse put hot packs on is
not physical therapy.” All physical therapists agree that physical therapy should be
performed by a physical therapist.     One therapist says, “Physical therapy should be
given by a licensed physical therapist, technicians have no idea why we do what we do,
or the physiological ideas behind therapy.”




                                             13

                     RECOMMENDATIONS


We recommend that HCFA take appropriate         steps to prevent inappropriate payments

for physical therapy in physicians’ offices. The HCFA can use the following

approaches to achieve this goal:


  .    Conduct   focused     medical review,

  �    Provide   physician   education   activities,

  .�   Apply its existing physical therapy       coverage   guidelines   for other settings to
       physicians’ offices.

We estimate that implementation    of this recommendation            would save $235 million
over five years. This figure was calculated by multiplying          $47 million per year by five
years.



COMMENTS

Comments on the draft report received from HCFA and the Assistant Secretary for

Planning and Evaluation (ASPE) concur with the general thrust and significant details

of our recommendations.   Suggestions for changes in wording, clarifications of the text

and technical changes have, for the most part been incorporated  into the final report.

The actual comments received are in Appendix B.


The HCFA plans an alternative course of action to the IG suggestion to conduct

focused medical review. It plans to share copies of the IG report with carriers and ask

them to focus on issues identified in the report.    In response to the suggestion that

HCFA provide physician education activities, it has a work group considering

alternative ways of providing appropriate   physician education.   The HCFA would like

to analyze the results of these actions before changing coverage guideline policies. We

support this approach and will, of course, be interested in the results of the analysis.


The HCFA also raised several technical comments.         Noting that our sample consisted

of HCFA common procedure coding system (HCPCS) physical medicine codes, HCFA

was concerned that services other than physical therapy may have been included in

our sample. We confirmed that the service was actually physical therapy through

review of actual services in the medical record. The HCF.4 also noted increases in

reimbursement    and asked for further information.     We focused on coverage in this

study and do not have sufficient information to determine why there has been a 40

percent increase in reimbursement     for physical therapy codes.





                                                   14

The ASPE raised several technical points regarding the basis of overpayments,       the
projection of our results, and the intent of our recommendations.      The basis for our
determination    that overpayments were made is the nature of the services, rather than
the individual providing them. Our method of sampling allows us to project our
results (see appendix A for further details). Finally, while we appreciate ASPE’S
desire to see a more explicit recommendation,    it is our desire to allow the operating
agency flexibility in addressing the concerns identified and developing corrective
actions.




                                             15

                              APPENDIX                        A


                     SAMPLE       SELECIION       AND PROJJXIIONS


We extracted all Physical Therapy services       (FICPCS 97010-97799) from a 1% Part B
Common Working File (CWF) sample of             1991. There were 123,950 sexvices for 8,562
beneficiaries which totalled approximately      $1,800,000. The file was sorted by
beneficiary and date of service to facilitate    categorizing beneficiaries by the specialty
of the provider.

The two provider categories were independent     physical therapists (IPT) and all types
of physicians. We used the first occurrence of each beneficiary’s semice to determine
the provider category. Therefore, if the beneficiary had services from more than one
provider, only one provider was sampled.    There were 2,078 beneficiaries in the IPT
group and 6,484 in the physician group. Simple random sampling was used to select
semices within each category of provider. The sample consists of 100 IPT services and
200 physician semices.

Beneficiary medical records were requested for the sample 300 cases, however, 45
beneficiary records were not sent. From the sample of 100 beneficiaries          who received
semices from IPTs, 89 were sent and from the 200 beneficiaries requested from
physicians offices, 166 were sent. After reviewing a beneficiary’s record, it was
determined whether or not the care given was restorative or for the establishment         of a
maintenance program.      If it did not fit either of these categories, we determined them
to be “non-covered.”   If the decision was that the care was non-covered, all physical
therapy services for the beneficiary/provider      combination in 1991 were assumed to be
non-covered and the estimated savings was based on the amount for the non-covered
semices. If the beneficiary was treated by more than one provider, only data from the
sampled beneficiary/provider     combination was used to estimate the savings. Separate
estimates were calculated for physicians and IPTs. Standard statistical formulas were
used to estimate the total savings and to compute a confidence interval around the
estimate.   The table below shows the distribution of beneficiaries and allowed charges
from the one-percent Part B Common Working File for 1991.

                          1% Part B Common        Working     File in 1991

                  Beneficiaries     Allowed             Beneficiaries        Allowed
                  in Universe       amount in           in Sample            Amount
                                    universe                                 In Sample

 IPT              2,078             $733,488     —      100                  $37,S76




                                                 1

The table below shows the covered and non-covered status of allowed charges based
on the result of the medical record review for physicians and IPTs.

                                Physicians
 Result of      Number of            Allowed      Number of       Allowed
 Review         Beneficiaries        Charges in   Beneficiaries   Charges in
                in Sample            Sample       in Sample       Sample

 Covered         36                  $5,733       78              $30,496
 Non-covered    130                  $14,512       11             $5,192
 No Records      34                  $4,760        11             $2,188
 Received

 Total          200                  $25,005       100            $37,876

Nearly 20 percent of the medical records from physicians’ offices were not received
and approximately 6 percent of the medical records from IPTs were not received and
therefore not reviewed. Of the received records, the percent of dollars for non-
covered cases in physicians’ offices is about 72 percent ($14,512/$20,245).  Projected to
the Medicare population the $14,512 is estimated to be approximately $47 million.
The 95 percent confidence internal for the estimated $47 million is $27.7 million to
$66.4 million. This estimate was computed by multiplying the unweighed       amount by
the inverse of the probability of selection (6,484/200) and then by 100 to weight from
the 1 percent file to the population.    By comparison, the estimated amount for non-
covered care provided by IPTs was only about 15 percent (5,192/35,688) of the total of
covered and non-covered amounts.       The unweighed    amount of non-covered care in
IPTs’ offices was projected in the same manner to obtain the estimate of $10.8 million.




                                               A-’2

APPENDIX      B

   COMMENTS




      B-1
..ACJ.   ~!

                                                                                 Hoakn Cm

              DEPARTMENT
                .        OF HEALTH a HU,MANSERWCES                               Fhncma   Admirvatratlan

                                             ..

                                                                                 Memorandum---

              Ja&giq#q
              Office of Inspector General (OIG) Drdt Rqafi      ‘PtyiuI   Therapy in Phydc;*’
              Ofices’ (OE142-!XMKJ590)

              June Gibbs Brown
              I.napectorGeneral


              We have rcvicwcd the above-referenced draft repon which exaxain= the nature ~d
              extent of phyaid   therapy semkes provided to Medicare beneficiaries in physic!!n#
              offices, and desai%es ~“er monitoring for kse aati~

              Based on tic biing~ OIG recommended that the Health Cue Financing
              Administration take appropriate steps to prewnt inappropfiata payments for
              physical thenpy in physicians’ offb.   These steps cuuld include focused rncdical
              rcvkw, physician education activitiq and applying &sting phyafral therapy
              cmeraga guidelines for ether settings co physicians’ c&-    OKI rhnatea that
              implczm.matian of tbia resommendaticn wculd mrt S235 miIiion over 5 ymn We
              cone~r with the overau r~o~eadaticn.       We agree with the first Wa optiIxI,A but
              disagree with the third. Our detailed comments are attached for your
              consideradcn.

              Thank you fcr the opportunity to retiew and ccrnment on this draft repafi Pkxse
              advise us if you wish to discuss cm: position cm the repon’s recommendations at
              your earliest cimvenferxe.

               Attachmczt
.




    We re~~end     that HCFA tie appropriate  step to preventinapFr@a&
    paymeats fcrphyskl thempy hI phyaidans’ of&ss. EICFA canuse the fcbwing
    Bppraachm to achieve Ma god:



    Conduct    focuxd    medical   review.




    We ecmcur uhti this opdq but prop= an alternadve cnurac of den             hn
    focmed rnedicd review speciffcal.ly. We would like tQ diatiuts      espies of OIG’s
    repart to the carriers with a caver note asking them to review it and f-c on the
    issues idcztified in the rep-    We will ask the carricra to publixb pertinent
    infomatbn presmtedin0K3’sreport          ccmcerning sppropriam bflling of physical
    therapy scmices in their quarttrly bulletins to providcra. For example, -Aem
    ccruid list commau pa]tiative semicrx that may be pefiormed in offic~ but that we
    not caverec? regardless of where the semhs xc delivered.

    QQQn2
    Provide ph@cian education a.cdvities



    ~ere iscurreatIy    a work grcupwithin HCFA”S Bureuuof policy Dcvc!oprmnt
    ccmpriseci of carrier physicians and phpical ‘&ra@m that is k.xdng on physicai
    tlmr~p~ in general. TMJ edxing work group b considering alternative ways of
    prawdmg apprcpiatc      physician educmion cu drninistcrkg physfcal the:spy in
    phy3ician cfficu.



     Apply &stiig       physic.d thcmpy cawc:sge g-uic?efies fcr ather scttitigt to phprism”
     Officu.
Page 2

RCF A Rc:s on5e

We would lie
changmg
                 to implement and anal: thf          reslts of the
           e.nge guidelie policies for physci efce a.rv
                                                                           fi   tWo option before


   010   c.n Jy poinu aut, phy medcie aees funrcd in ph
Qif are cO'red   under the lI incluent to" preon of Mec. Under thc
incident to prevon. a ph)'ic mAY employ J.u%i persel to a.t
renderig semcet. The ph)'ci              include. the charges for such au:ry
servcu in his aw        bil.                                                                pcn.n.el

IJthough there are no detae.    CQeragc guideline. for physca therpy in ph)1!lcia
offce:! the Social Security Act requires the aeMecs to be reuonable and n
for the di::gnoas and tr tme:t of ile. or          jwy or to improv thc functicning of
3. malormed body member. AI poited cut in the rcpcn, payment
                                                                       is prom.oltbd for
medial     sec   for prevention, palticn resuch or                enution. Curen
eatabli their cw poHde. to int.rprtt and Impcaa thes requircmen on ph
serv       We beU "'e that impl!.mentig the fit tW Qption wi1 prcdc
to the locl amers as well 31 to physcian I, en wb2t
                                                                 are deemed
                                                                                                 idh
rea30nllbte and nc        S!ary to re,tcre   functiniDg under the extig               incident to
provion.
Tl.hnit:1 Comments
CIG' s sample cOIlsi:sU!d of the HCF A        c.on   procedure
codes 97010 to 97799. We would lie to point out that th                   ! l)em (HCICS)
                                                                        coes ar for
medicinc, which may have b n us.d to report servces other than phytc. thcnpY.
Therefore , OIG' . cmpbasil OIl whether thC3 servcu represnt 8 tre physc1
tber pY may be          tated. The aelcdon of this

validity of the fidig that aIaou feur out of fie           ca
                                                               t of Ctes.may      the
                                                                   re.buncd as physc:
                                                                                       af
thcrnpy in pb)"icians ' off        do not represent tre ph)"al tberapy servces
would be inter tc:d OD OIG' s        !        k On ths point.

The report Jta tbat there W' a S4a million mcreue from 1990 to 1991 in
MediC:e reimbunemcnt for physcal medicie servc. It wold be ulcful to 'cow
whether    thinC'      C3used by camu from phytci abuli the
                                                                                           sy,
cpp      ed to phytc:u the
 on c:brges fer pb.
                                pis the legisted inc:e          from SSOO to $750           i:l the: C3p
                          t: and ooJp!.ona. ther3py 'eM     or SCe other C3u
This inlon:     rion would help u, evac:1te whether the. recencation ..ld ,o!"e
 t.,e problem of inc:re3. es    iI thb &Iel. cr   if 3bu$e by phyrans is a $mal pi                  of A
 much luger   problem. .
 On page A- 2.    the p   r3gI1ph fol1C"g !.e              i... lic CC'
                                                   bblc:                         JhC\Id rc:
              nc: 9     pcr    nt conEde:1c. icterv! fcr tbc    e,tmAt.d        S4i     trilcn
              527. 7   milon to S66.4    lDilio:: (nt:c:r than $6.   4 milo.).
,.....
                    DEPARTMENT Of HEALTH
                                                      &.           --                                                 (; ."
                                                           HUMAN SERVICES                          Offce   ot   the Secretary
                    l(i
                    PDIG                                                                           Washington , D. C.   20201
                    DIG-AS
                    DIG-
                    AIG-MP
                    OGIIG                                        AUG 2 3
                    EX SEC
                    Dj,TE SENT                                                                                        c: n
                                                                                                                      ::
                                                                                                                            maG
                                                                                                                            C1 rn rr

         TO:                         Bryan B. Mitchell                                                                .t rn::z-
                                                                                                                             -- IT
                                                                                                                         ;: UJ -c
                                     Principal Deputy Inspector General                                                     1-

                                                                                                                                 o c:
         FROM:                     Assistant Secretary for
                                     Planning and Evaluation
         SUBJECT:                   OIG Draft Report: "Physical Therapy in
                                    Physicians' Offices"     CONCUCE                    WITH COMMS
                                                                           E/-tJ2- fit) -tJOSC;O
         This report examines the nature and extent of physical therapy
         services provided to Medicare beneficiaries in physicians'
         offices , and also describes carrier monitoring of these
         In brief, ASPE recommends that
                                         OIG:                        services.
         inappropriate payments is examined  in 1.
                                                - ) clarify which cause of
                                                 the data , 2. ) discuss the
         appropriateness of generalizing the study'
         recommendations more explicit                s results; 3. ) make the
         changes.                      , and 4. )  make minor editorial

         1.  Clarifv which cause of inaDDroDriate paYments is examined in
         the data   We believe
                                 at   is reportinidentifies
         reasons why many PT services provided              twooffices
                                                   physicians'  distinct
         would not be reimbursed if provided in any other outpatient
         setting.  These causes (which are not mutually exclusive) are:

                                 nature      e ser
                     was palliative , non- complex , orices was inappropriate
                                                                          (i.
                            ) that the
                                                           of

                                                        not related to a trea
                     plan with goals or objective evaluations). This cause ent
                                                                           is
                     discussed on pages 6-9.
                                   individual providincr e services was not
                                   that

                     appropriately qualified. This cause is discussed in quali-
                     tative te s on pages 11-12.
         Upon first                   reading this report
         addressing                   one or both issues., we were uncertain if it was
         recognized                                        Upon closer inspection, we
                                      that claims had been inspected
         the nature                   of the services was appropriate to dete ine only if
                                              at the quantitative fi dings refer only to e providers.
                                                                      , not
         We thus realized

         first of                         et
                                          o potential causes of i appropriate payments.
         Given that                       clai:ns fOn1s do not
                                          indicate who provided " FT" servic-
              , we understand that
                                   is study was not able to deten1i
         extent of i  appropriate pa
         However , to avoid confusion ,ents d e to
                                        we recO end
                                                     qualified providers.
                                                       at orG:
      , ,-                                                               , "
r.-




             Page 2 - Bryan B. Mi   tchell
                   1. ) distinguish between the two potential causes of inap-
                   propriate payments early in the report , and explain that due
                   to data limitations the quantitative aspects of the report
                   address only the   first.
                        state that , because of the possibility of unqualified
                   persons providing services of an appropriate nature
                                                                       , the
                   incidence of inappropriate payments may be higher than  the
                   findings indicate.
             2. Discuss
             resul ts
                        the appropriateness of qeneralizinq the
                     The conclusions of this study are based on astudv' s
                                                                   sample
             which is relatively small and which is also subject to non-
             response bias. Due to these limitations
                                                     , we recommend
             report explicitly discuss whether the results          that
                                                           are simply    the
                                                                      sugges-
             tive or if they are considered to be generalizable to the entire
             Medicare population.
             3.  Make the recommendations more exPlicit
             recommendations be expanded as follows:       We suggest that the

                   "Conduct focused medical review"
                   should include the answers to the - This recommendation
                                                     following
                                                               issues: Review
                   of what? For what purpose? Would this require
                   any data beyond what is collected at present?   collecting
                   "Provide 'Chvsician education activities"
                  examples of education activities would be -helpful
                                                              Some specific
                                                                     here.
                  Also , given that on page 10 the report suggests that educa-
                  tion without enforcement is not effective, this recommenda-
                  tion should mention that enforcement measures may also be
                  necessary if education efforts are to have their desired
                   effect.
             Also ,the report should explicitly state that the figure of $235
             million of savings was calculated by multiplying $47 million per
             year by five years.
             4.   Make minor editorial chanqes

                       - In the fou    paragraph, second sentence
                   not be a comma after the word " goals"                ere should

                   IL   - In the third full paragr-aph , last sentence
                   should read " many"                                         ay"
.' t ..

          Page 3 - Bryan B. Hi tchell
                      In the second paragraph, four sentence
                                                               , the Upper
               limit of the confidence interval should not be $6.
                                                                 4 million.


                                   David T. Ell.

          Prepared by:   c. Prentice/rg   690-7994
